~




MEI\10RANDUM
                                                                              Refer To:
Date:  February     14,   2001

To:     William A. Halter
        Acting Commissioner of Social Security



From:   Inspector   General



Subject:Payments Due to the District of Columbia Water and Sewage Authority
      for Social Security Administration Occupied Buildings --INFORMATION




         In summary I we found thatSSA does not make payments to the DC WASA because
         SSA does not have any delegated buildings in the area serviced by DC WASA. The
         General Services Administration is responsible for the operations, including payment for
         water and sewage service charges, for all SSA occupied buildings in the area under the
         jurisdiction of DC WASA.                  .


         If you have any questions, please call me or have'your staff contact,
         Steven L. Schaeffer, Assistant Inspector General for Audit, at 410-965-9700.



                                                             jj1:/~~                 ~
                                                 /   James   G. Huse,   Jr.



         Attachment
                                SOCIAL                  SECURITY
                                                    I'
                                     Office   of the Ins~ector    General


                                        February 14, 2001



The Honorable C.W. Young
Chairman, Committee on Appropriations
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

As required by the Omnibus Consolidated App~opriations Act (Public Law 106-554), the

Social Security Administration's (SSA) Office 01the Inspector General (GIG) is pleased

to provide you with the requested information relating to the promptness of payments to

the District of Columbia Water and Sewage Authority (DC WASA).


In summary, we found that SSA does not make payments to the DC WASA because

SSA does not have any delegated buildings in ~he area serviced by DC WASA. The

General Services Administration is responsible for the operations, including payment for

water and sewage service charges, for all SSA joccupied buildings in the area under the

jurisdiction of DC WASA. Because SSA is not responsible for payments, we

 respectfully request that the Committees waive'this reporting requirement for SSA/OIG.


We have sent identical letters and enclosures to the Honorable David Obey, Ranking

Minority Member of your Committee and the Chairman and Ranking Minority Member of

the Senate Committee on Appropriations.


If you have any questions or would like to be briefed on this issue, please call me or

have your staff contact, Steven L. Schaeffer, Assistant Inspector General for Audit, at

410-965-9700.


                                                    Sincerely I


                                                I
                                                    /

                                                    James;G. Huse, Jr.
                                                    Inspec~or General of Social Security

Enclosure




                 SOCIAL   SECURITY   ADMINISTRA'noN              BALTIMORE   MD 21235-0001
Identical letters sent to:


The Honorable David Obey

Ranking Minority Member

Committee on Appropriations

House of Representatives

Washington, D.C. 20515


The Honorable Robert C. Byrd

Ranking Minority Member

Committee on Appropriations

United States Senate

Washington, D.C. 20510


The Honorable Ted Stevens

Chairman, Committee on Appropriations

United States Senate

Washington, D.C. 20510

      CONGRESSIONAL REPORT




Payments Due to the District of Columbia

      Water and Sewage Authority

   for Social Security Administration

          Occupied Buildings





             FEBRUARY 2001

                                BACKGROUND

The Omnibus Consolidated Appropriations Act (Public Law 106-554) requires:

        “…that not later than 15 days after the end of the month following each quarter
        (beginning with the first quarter of fiscal year 2001), the inspector general of each
        Federal department, establishment, or agency receiving water and sewage
        services from the District of Columbia shall submit a report to the Committees on
        Appropriations of the House of Representatives and Senate analyzing the
        promptness of payment with respect to the services furnished to such
        department, establishment, or agency.”

Agencies having delegated buildings1 are required to make payment on the first day of
each quarter for water and sewage to the U.S. Department of the Treasury’s Federal
Payment for Water and Sewage Services account. General Services Administration
(GSA) is responsible for the deposits for water and sewage cost for non-delegated
buildings. On the second day of each quarter, Treasury’s Financial Management
Service (FMS) transfers funds to the DC WASA. If agencies do not make their
payments timely, FMS may not have sufficient funds available to make the transfer.

The District of Columbia Water and Sewage Authority (DC WASA) services the District
of Columbia; portions of the State of Maryland’s Prince Georges and Montgomery
Counties; portions of the Commonwealth of Virginia’s Loudon and Fairfax Counties; and
the City of Vienna, Virginia.




1
 Agencies occupying delegated buildings are responsible for paying water and sewage charges directly to the
supplier.
                                                        1

               RESULTS OF REVIEW

To comply with the requirements of the Omnibus Consolidated Appropriations Act
(Public Law 106-554), we interviewed SSA Office of Finance and Office of Facilities
Management staff, as well as GSA staff responsible for SSA occupied space. The
purpose of those interviews was to determine the SSA occupied buildings serviced by
the DC WASA and the nature of any payments for water and sewage services. The
scope of our review covered SSA occupied buildings during the period Fiscal Year 1990
to present.

We compiled a list of the space SSA occupies in the District of Columbia and
surrounding area (see Attachment A). Because we were not sure of the exact area
serviced by the DC WASA, we used GSA’s Region 11, which covers the District of
Columbia and surrounding area, for the scope of our review. SSA occupies 22
buildings in GSA’s Region 11. Twenty-one buildings are leased from private concerns
and one is owned by the Social Security trust funds.

SSA does not have any delegated buildings in the area serviced by the DC WASA.
GSA manages all of the SSA occupied space. Specifically, GSA pays either rental cost,
which covers water and sewage costs, to the lessor or pays the DC WASA for water
and sewage services. SSA could not provide us with the names of the lessors because
the leases were negotiated and maintained by GSA.



.




                                          2

                          CONCLUSION

GSA operates all SSA buildings in and around the District of Columbia. As a result,
GSA is responsible for water and sewage service charges. SSA is not responsible for
making payments to the DC WASA.

Barring a change in these conditions, we respectfully request that the Committee on
Appropriations waive the requirement that the Inspector General of Social Security
report each quarter on the promptness of payments for DC WASA service charges.




                                           3

                                APPENDIX
                         List of SSA Occupied Buildings
                    General Services Administration Region 11


Real Property       Building Number         Address
Identification

Leased Buildings:

      Washington DC

DC0331       DC0050308                500 E Street SW (ITC Building)

DC0373       DC0055689                820 First Street NE

DC0406       DC0051289                800 N Capitol Street NW (OI DC Suboffice)

DC0421       DC0018656                400 Virginia Avenue

             /DC0055982
DC0436       DC0058978                1905-B 9th Street NE

DC0467       DC0018703                2041 Martin Luther King Avenue

DC0512       DC0051638                7820 Eastern Avenue NW

DC1222       DC0018836                2100 M Street NW


      Maryland

MD0206       MD0018908                51 Monroe Street, Rockville

MD0245       MD0018950                8484 Georgia Avenue, Silver Spring

MD0326       MD0019034                7401 Forbes Boulevard, Seabrook

MD0327       MD0019035                337 Brightseat Road, Landover

MD1194       MD0019090                Wheaton Shopping Center, Wheaton


      Virginia

VA0244       VA0052409                5111 Leesburg Pike, Falls Church (OA)

VA0274       VA0055119                1815 N. Fort Meyer Drive, Arlington

VA0301       VA0019313                5107 Leesburg Pike, Falls Church

VA0309       VA0019317                6295 Edsall Road, Alexandria

VA0357       VA0019417                10500 Battleview Parkway, Manassas

VA0373       VA0050788                8700 Centreville Road, Manassas

VA0401       VA0019457                11212 Waples Mill Road, Fairfax

VA1573       VA0055935                8600 Morrissette, Springfield


Trust Fund Owned Building:

      Maryland

MD0067       MD0018873                6400 Old Branch Avenue, Clinton

